        O
        F
        F
        I
        C
        E

        O
        F

        I              SEMIANNUAL
        N
                         REPORT
        S
        P                TO THE
        E               CONGRESS
        C
        T
        O
              NATIONAL ENDOWMENT FOR THE HUMANITIES
        R

        G
        E             APRIL 1, 2001 TO SEPTEMBER 30, 2001


        N
        E     "Democracy demands wisdom and vision in its citizens"

-
    -
        R   National Foundation on the Arts and the Humanities Act of 1965


        A
        L
                            Inspector General’s Message


On behalf of the OIG staff, I wish to express our heartfelt sorrow to all Americans who suffered
from the events of September 11, 2001, and the recent bio-terrorism attacks. It will take a while
to recover emotionally from these events, but we believe the American spirit and courage will not
be destroyed. Not surprisingly, these events have made us stronger and brought all Americans
closer.

The humanities teach us about human civilization. It teaches us about the American spirit and
courage. Many nations are saying we should study their history and culture to learn why they do
not like America. While this may have some truth, it is equally important that these people and
American people learn more about United States history. Everyone should know about our
country’s Constitution, Bill of Rights and how we live in a free society. As President Abraham
Lincoln stated, the United States is a “… government of the people, by the people, for the
people.” When one has an understanding and appreciation of our government, no one, from
wherever they are, will be able to really believe that there is any logical reason for the horrific
events of September 11, 2001.

God Bless America.




Sheldon L. Bernstein
                  Phone 202/606-8350 Fax 202/606-8329 E-mail oig@neh.gov


                                             October 30, 2001




Honorable William R. Ferris
Chairman
National Endowment for the Humanities
Washington, DC 20506

Enclosed is the Semiannual Report for the Office of Inspector General (OIG) for the period
April 1, 2001 – September 30, 2001. The report, which is required by the Inspector General Act
as amended, provides an overview of the activities of the OIG during this six-month period. The
Act requires that you transmit this report, with your Report of Final Action, to the appropriate
congressional committees within 30 days of receipt.

I look forward to working with the new Chairman, agency managers, the NEH employees Union,
Congress, and NEH's various stakeholders to help ensure that NEH delivers grant awards in an
economical and efficient manner.

As this is the last report during your term as Chairman, I want to thank you for your support.

                                                  Respectfully,




                                                  Sheldon L. Bernstein
                                                  Inspector General



Enclosure
                                          TABLE OF CONTENTS



LETTER TO THE CHAIRMAN

REPORTING REQUIREMENTS

INTRODUCTION ................................................................................................................................   1

AUDIT, SURVEY, AND INSPECTION ACTIVITIES...........................................................................                             2

INVESTIGATION ACTIVITY...............................................................................................................           10

OTHER ACTIVITIES...........................................................................................................................     12

TABLE I - INSPECTOR GENERAL-ISSUED REPORTS...................................................................                                   14
WITH QUESTIONED COSTS

TABLE II - INSPECTOR GENERAL-ISSUED REPORTS WITH .......................................................                                        14
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

GLOSSARY OF AUDIT TERMINOLOGY ..........................................................................................                        15




NEH OIG Semiannual Report                                                                                                 September 2001
                            REPORTING REQUIREMENTS



The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting
requirements for semiannual reports. The requirements are listed and cross-referenced to the
applicable pages in this report.


IG Act Reference            Reporting Requirements                                       Page

Section 4(a)(2)             Regulatory and Legislative Reviews……………………………… 13

Section 5(a)(1)             Significant Problems, Abuses, and Deficiencies………………… 2-9

Section 5(a)(2)             Recommendations for Corrective Action ………………………… 2-9

Section 5(a)(3)             Prior Significant Recommendations Unimplemented…………… *

Section 5(a)(4)             Matters Referred to Prosecutive Authorities……………………… 11

Section 5(a)(5)             Instances Where Information Was Refused or Not Provided…… *

Section 5(a)(6)             List of Audit Reports Issued………………………………………… 2-3

Section 5(a)(7)             Summary of Significant Reports…………………………………… 2-9

Section 5(a)(8)             Audit Reports - Questioned Costs….……………………………… 14

Section 5(a)(9)             Audit Report - Funds To Be Put to Better Use.…….…………….. 14

Section 5(a)(10)            Prior Audit Reports Unresolved…………………………………..… *

Section 5(a)(11)            Significant Revised Management Decisions………………………. *

Section 5(a)(12)            Significant Management Decisions with which OIG Disagreed…..*


         * None this period




NEH OIG Semiannual Report                                                           September 2001
                                   INTRODUCTION

                THE NATIONAL ENDOWMENT FOR THE HUMANITIES

In order to promote progress and                    The act that established the National
scholarship in the humanities and the arts in       Endowment for the Humanities says "The
the United States, Congress enacted the             term 'humanities' includes, but is not limited
National Foundation on the Arts and the             to, the study of the following: language,
Humanities Act of 1965. This act                    both modern and classical; linguistics;
established the National Endowment for the          literature; history; jurisprudence; philosophy;
Humanities as an independent grant-making           archaeology; comparative religion; ethics;
agency of the federal government to support         the history, criticism, and theory of the arts;
research, education, and public programs in         those aspects of social sciences which have
the humanities. Grants are made through             humanistic content and employ humanistic
four divisions - Research Programs,                 methods; and the study and application of
Education Programs, Preservation and                the humanities to the human environment
Access, and Public Programs -- and three            with particular attention to reflecting our
offices -- Challenge Grants, Enterprise, and        diverse heritage, traditions, and history and
Federal-State Partnership.                          to the relevance of the humanities to the
                                                    current conditions of national life."



                            THE OFFICE OF INSPECTOR GENERAL

 The NEH Office of Inspector General was            •   reports directly to Congress.
established on April 9, 1989, in accordance
with the Inspector General Act                      The Act states that the Office of Inspector
Amendments of 1988, (Public Law 100-                General is responsible for (1) conducting
504). In this legislation, Congress                 audits and investigations; (2) reviewing
established Offices of Inspector General in         legislation; (3) recommending policies to
several departments and in thirty-three             promote efficiency and effectiveness; and
agencies, including NEH. The NEH                    (4) preventing and detecting fraud, waste,
Inspector General (IG) is appointed by the          and abuse in the operations of the agency.
Chairman. The independence of the IG is             The Inspector General is also responsible
an important aspect of the Act. For                 for keeping the Chairman and Congress fully
example, the IG:                                    and currently informed of problems and
                                                    deficiencies in the programs and operations.
•   cannot be prevented from initiating,
    carrying out, or completing an audit or         The OIG staff consists of the Inspector
    investigation, or from issuing any              General, a Deputy Inspector General for
    subpoena;                                       Audits, two auditors, and a secretary. The
                                                    OIG and the Office of General Counsel
•   has access to all records of the agency;        (OGC) have a Memorandum of
                                                    Understanding detailing the procedures for
•   reports directly to the Chairman, and           the OIG to be provided with OGC legal
    can only be removed by the Chairman,            services. Investigations are handled by the
    who must promptly advise Congress of            Inspector General, an auditor and as
    the reasons for the removal; and                required by the agency’s Assistant General
                                                    Counsel.



NEH OIG Semiannual Report                       1                                       September 2001
         AUDIT, SURVEY, AND INSPECTION ACTIVITIES

This office is responsible for external and           reviews/evaluations of the NEH
internal audits. External auditing includes           administrative, programmatic, and financial
grants, pre-award accounting system                   operations.
surveys, review of OMB Circular A-133
reports, and on-site quality assurance                During this reporting period, the OIG
reviews of CPA work papers. Internal efforts          received and processed 152 OMB Circular
consist of audits, inspections, and                   A-133 audit reports and issued nineteen
                                                      memorandum reports containing findings
                                                      (see Single Audit Act Reviews).

                            LIST OF AUDIT REPORTS ISSUED
The following is a list of audit/survey reports       Dollar Value of Questioned Costs" (including
issued by the OIG during the reporting                a separate category for the ″Dollar Value of
period. The Act requires us to report on the          Unsupported Costs″). None are reported
"Dollar Value of Recommendations that                 during this period.
Funds Be Put to Better Use," and the "Total

INTERNAL AUDITS/REVIEWS                                    Report Number              Date Issued

Final Report on the Use of Cookies                         OIG-01-01 (IR)             04/19/01

Review of the OIRM Strategic Information Technology        OIG-01-02 (IR)             04/19/01
 Plan

Interim Report on Government Information Security          OIG-01-03 (IR)             08/10/01
  Reform Act (GISRA) Review

Report on Government Information Security                  OIG-01-04 (IR)             09/10/01
 Reform Act (GISRA) Review


EXTERNAL AUDITS/REVIEWS

Review of Independent Public Accountant (IPA)              OIG-01-101 (QAR)           04/03/01
 Workpapers for 1999 Financial Statement and
 Compliance Audit of the Humanities Council of
 Washington, D.C.

Review of Independent Public Accountant (IPA)              OIG-01-102 (QAR)           06/14/01
 Workpapers for 1999 Financial Statement and
 Compliance Audit of the Delaware Humanities Council

Quality Control Review of Albin, Randall & Bennett,        OIG-01-103 (QCR)           08/05/01
 CPA Audit of the Maine Humanities Council for the
 Year Ended October 31, 2000

Quality Control Review of Vachon, Clukay, & Co.,           OIG-01-104 (QCR)           09/25/01
 PC Audit of the New Hampshire Humanities
 Council for the Year Ended October 31, 2000



NEH OIG Semiannual Report                         2                                   September 2001
EXTERNAL AUDITS/REVIEWS (Continued)                   Report Number      Date Issued

Quality Control Review of Gordon and Hale, PC Audit   OIG-01-105 (QCR)   09/28/01
 of the New Mexico Endowment for the Humanities
 for the Year Ended October 31, 2000


SINGLE AUDIT ACT REVIEWS

Mississippi Humanities Council                        OIG-01-07 (CAA)    09/28/01
Georgia Humanities Council, Inc.                      OIG-01-08 (CAA)    09/28/01
Montana Committee for the Humanities                  OIG-01-09 (CAA)    09/28/01
New Jersey Council for the Humanities                 OIG-01-10 (CAA)    09/28/01
Massachusetts Foundation for the Humanities           OIG-01-11 (CAA)    09/28/01
Wyoming Council for the Humanities                    OIG-01-12 (CAA)    09/28/01
Humanities Iowa                                       OIG-01-13 (CAA)    09/28/01
Delaware Humanities Council, Inc.                     OIG-01-14 (CAA)    09/28/01
Minnesota Humanities Commission                       OIG-01-15 (CAA)    09/28/01
Unicorn Projects, Inc.                                OIG-01-16 (CAA)    09/28/01
Hawaii Council for the Humanities                     OIG-01-17 (CAA)    09/28/01
Brown University                                      OIG-01-18 (CAA)    09/28/01
Vermont Council on the Humanities, Inc.               OIG-01-19 (CAA)    09/28/01
New Mexico Endowment for the Humanities               OIG-01-20 (CAA)    09/28/01
New Mexico Endowment for the Humanities               OIG-01-21 (CAA)    09/28/01
WGBH Educational Foundation                           OIG-01-22 (CAA)    09/28/01
Alaska Humanities Forum                               OIG-01-23 (CAA)    09/28/01
Humanities Council of Washington, DC                  OIG-01-24 (CAA)    09/28/01
Amerika Samoa Humanities Council                      OIG-01-25 (CAA)    09/28/01




NEH OIG Semiannual Report                     3                          September 2001
                      SUMMARY OF REPORTS ISSUED

                                       INTERNAL AUDITS
                       NEH PLACES COOKIES ON VISITORS' COMPUTERS

Final Report on the Use of Cookies                     History (My History)] available for public
April 19, 2001          OIG-01-01 (IR)                 access. The objectives of the OIG review
(Draft issued during prior period)                     were to determine 1) if NEH places
                                                       persistent cookies on visitors' computers, 2)
On December 21, 2000, Congress passed                  whether NEH tracks information obtained
legislation that required the IGs from each            from the cookies, and 3) the adequacy of the
department and agency to report to                     privacy statements included on each
Congress on any collection of personally               website. To test the placement of
identifiable information on Internet sites.            cookies, we accessed the home pages for
Such information could be collected either             the three NEH web sites using a computer
on agency web sites or through third party             outside of the .gov and .neh domain.
agreements.
                                                       Our review disclosed that persistent
The Office of Inspector General performed a            cookies are placed on visiting computer hard
review of internet privacy and NEH's use of            drives when the NEH and My History web
cookies on its web sites. A cookie is a short          sites are accessed. The EDSITEment web
string of text - not a program - that is sent to       site places no cookies on visiting computer
your browser when you access a web site.               hard drives. Privacy statements on both the
The use of cookies allows the server to                NEH and My History web sites states that "if
recognize returning users. There are two               you do nothing during your visit but browse
types of cookies "persistent cookies" and              through the website, … we will gather and
"session cookies." Persistent cookies is a             store information about your visit
more permanent line of text that tract                 automatically…that the information does not
information over time and remains stored on            identify you personally." The statement does
the user's computer until the specified                not indicate that NEH will place persistent
expiration date. Session cookies are used              cookies on visiting computer hard drives to
only during a single browsing session and              identify visitors.
do not collect information in ways that raise
privacy concerns. Session cookies are                  Our recommendation was for NEH to
stored temporarily in the computer's ram.              discontinue the use of the "cookies" in order
                                                       to comply with government regulations.
NEH has three web sites [NEH,
EDSITEment, & My History is America's



        COMPUTER PLANS NEED TO BE INCLUDED IN AGENCY'S STRATEGIC PLAN

Review of the OIRM Strategic Information               Strategic Information Technology Plan and
Technology Plan                                        the process used to develop the plan. The
April 19, 2001             OIG-01-02 (IR)              purpose of the review was to determine
(Draft report issued in prior period)                  whether OIRM was doing strategic planning
                                                       and the adequacy of the documentation of
The OIG performed a review of the Office of            the planning process.
Information Resources Management (OIRM)




NEH OIG Semiannual Report                          4                                    September 2001
Our review disclosed that 1) there is no
procedure in place at NEH to ensure that             The NEH Chief Information Officer
issues and opportunities identified in the           concurred with our recommendation that
information technology long-range strategic          NEH develop a written Strategic Plan for
plan are reflected in NEH's strategic plan, 2)       OIRM based on the NEH Strategic Plan and
OIRM is not in compliance with NEH                   the OIRM plan should be incorporated in the
Administrative Directive M-600 to develop            NEH Strategic Plan. We agreed to provide
annual plans. (We also noted that the                assistance as required to implement the
Directive was issued in 1985 and it does not         recommendations.
reflect the client/server environment in which
NEH currently operates).




                SECURITY CONTROL WEAKNESS - MISSION CRITICAL SYSTEM

Interim Report on Government                         Management (OIRM) to add employees and
Information Security Reform Act (GISRA)              contractors/ temporary employees to NEH
August 10, 2001           OIG-01-03 (IR)             2000. We also found a similar problem
                                                     when employees separate from the agency.
GISRA requires the OIG to perform an                 The general support system, (NEH 2000) is
independent review of the information                also used by the Institute of Museum and
security program and practices and report            Library Services (IMLS) and the President's
the results of the review to the Office of           Committee on the Arts and Humanities
Management and Budget (OMB) with the                 (PCAH), therefore, this security control
agency's budget submission. OMB set the              weakness also affects them.
date of report submission as September 10,
2001. During the review we discovered a              Our recommendations included 1) that
security control weakness in a mission               OIRM institute a formal/written system of
critical system. Therefore, we issued a              supervisory controls on the removal,
special report prior to the date set by OMB.         addition or disabling of accounts on the NEH
                                                     information system; that OIRM explore the
Our review disclosed a weakness in the               installation of an audit trail to show these
way general support system users are                 events; and, 3) that NEH, IMLS, and PCAH
added to and removed from NEH 2000. No               set up a centralized point of contact to notify
central point of contact (POC) exists to             NEH's OIRM of a reportable event.
inform the Office of Information Resource




NEH OIG Semiannual Report                        5                                     September 2001
               NO WRITTEN SECURITY PLANS FOR MISSING CRITICAL SYSTEMS

Report on Government Information
Security Reform Act (GISRA) Review
September 10, 2001 OIG-01-04 (IR)


As stated under OIG-01-03 (IR) page 5, the           behavior on the systems. In addition, there
Government Information Security Reform Act           was no incident response capability as
(GISRA) requires the OIG to perform an               described in OMB Circular No. A-130
independent review of the agency's                   Appendix III, at the time of our review.
information security program and practices
and report the results to OMB. This report is        We made twelve recommendations to
the second in a series of reviews of selected        improve the deficiencies identified. Several
information systems at NEH. We submitted             important recommendations are:
this report to OMB.
                                                     •   An overall formal risk-based security
The objective of the review was to identify              plan for NEH must be prepared as well
the security controls and to review the                  as formal risk-based security plans for
effectiveness of selected controls over                  each of the mission critical systems.
information resources that support NEH's
operations and assets. We chose to test the          •   A written risk assessment should be
security control techniques for three of the             done of the mission critical systems
agency's five systems. The three most critical           identified and policies need to be
systems chosen were:                                     established to conduct on-going risk
                                                         assessments.
•   Accounting - Used to manage agency
    funds. Located on the WANG computer.             •   That OIRM institute a continuing training
                                                         program for NEH staff to make users
•   NEH 2000 - Office automation system,                 aware of their security responsibilities
    including word processing and e-mail. A              and expected behavior.
    client server, Windows NT-based
    system.                                          •   The security officer is provided with
                                                         training.
•   GMS - SQL Server-based application
    slated to replace Augustus (Grants               We are pleased that the NEH CIO has been
    Management System) and Prism                     cooperating fully with the OIG and has taken
    (Panelist System). Currently both                several steps to implement some of the
    systems reside on the WANG computer.             recommendations.

Our review revealed that NEH did not have
an overall security plan or security plans for
each of the mission critical systems. We
found the CIO does not have a written risk
assessment and that users are not aware of
their security responsibilities and expected




NEH OIG Semiannual Report                        6                                    September 2001
                                  EXTERNAL AUDITS/REVIEWS

    QUALITY CONTROL REVIEWS (QCR) OF INDEPENDENT PUBLIC ACCOUNTANTS (IPA's)

See Pages 2-3 for the list of the five IPAs
reviewed. The objectives of the QCRs were to                •   There was inadequate testing of Council
ensure that the audits were conducted in                        policies concerning subrecipient
accordance with ″Government Auditing                            monitoring.
Standards (GAS)″ and meet the single audit
requirements; identify any follow-up work                   •   There were errors in the Schedule of
needed; and identify issues that may require                    Expenditures of Federal Awards and the
the attention of NEH management.                                Data Collection Forms.

We found that the audits were generally                     We made recommendations to IPAs on how to
conducted in accordance with applicable                     perform the audits according to the single audit
standards. However, the audits did not, in all              requirements. We plan on issuing a reminder
respects, meet the single audit requirements.               to the IPAs from all 56 state humanities
Several exceptions are listed:                              councils that more care has to be made on
                                                            these audits. We found that most of the IPAs
•    There was no evidence in the working                   were performing preliminary year-end
     papers to substantiate that testing had                accounting work in order to make the councils
     been performed on 1) disbursements; and                books and records auditable. Therefore, they
     2) information reported on the Federal Cost            were expending most of their agreed upon time
     Transactions Reports or the Financial                  fixing the records rather than auditing. The
     Status Reports.                                        work on the financial statements was adequate,
                                                            however, the IPA's did not expend sufficient
•    There was no indication that the current               time on the compliance component.
     work paper files contained the OMB
     compliance supplement or that information              During one review, we noted four regrants that
     applicable to the NEH major program,                   were awarded under a prior closed grant with
     Federal/State Partnership, was reviewed.               outstanding balances as of the completion date
                                                            of the grant. We recommended that NEH
•    There was no evidence in the working                   recover funds associated with regrants
     papers that the IPAs tested amounts                    awarded under the grant that were not
     reported by the Council as cost sharing in             liquidated within 90 days after the completion
     order to determine compliance with the                 date of the grant period, (as prescribed in the
     specific requirements pertaining to                    NEH General Grant Provisions for General
     matching.                                              Support Grants to State Humanities Councils).
                                                            This recommendation remained open at
•    There was no evidence in the working                   September 30, 2001.
     papers that the IPAs tested or reviewed the
     eligibility of gifts certified by the Council to
     release Federal matching funds.




NEH OIG Semiannual Report                               7                                   September 2001
                                  SINGLE AUDIT ACT REVIEWS


We receive audit reports on NEH grantee                   and reimbursements, credit card usage
organizations from other federal agencies,                and documentation, cash drawdown
state and local government auditors, and                  procedures, financial management
independent public accountants. These                     procedures, expenditure allocations
reports are the result of OMB Circular A-133              and responsibility for accounting and
audits. The single audits report on financial             internal control functions.
activities, compliance with laws and
regulations, and grantee management                   •   Prepare bank reconciliations monthly,
(internal) controls over federal expenditures.            with review by someone other than the
In most instances, the cognizant agency is                person responsible for performing the
the Department of Health and Human                        reconciliation to ensure the accuracy of
Services (the federal agency with the                     the recording of cash transactions.
predominant financial interest).
                                                      •   Develop a formal, written procurement
During this six-month period we reviewed                  policy that adheres to the requirements
152 OMB A-133 audit reports. Nineteen of                  set forth in OBM Circular A-110.
the reports contained audit findings. Sixteen
of the reports with findings were associated          •   Request cash advances on the same
with state humanities councils.                           day of each month and the methodology
                                                          for anticipating federal expenditures be
In addition, we expended considerable effort              reviewed to ensure that time is
in determining which grantees have not                    minimized between receipt and
submitted OMB Circular A-133 audit reports.               disbursement of federal funds.
We have discovered that several
organizations do not have sufficient funds            •   Develop a sexual harassment policy that
for audits by independent public                          the State regulates and distribute the
accountants. The OIG is working with these                policy annually.
organizations and their independent public
accountants to develop an appropriate cost-           •   Develop a written asset capitalization
effective audit approach.                                 policy. Once approved, all capitalized
                                                          items should be properly recorded and
To ensure that we receive OMB Circular A-                 depreciated.
133 audit reports from the state humanities
councils in a timely manner, we sent an e-            •   Account for vacation days earned and
mail message to all of the executive                      used by employees.
directors and Board chairpersons. We will
continue to send reminders to the state               •   Maintain cash at local banks and ensure
councils. We are providing some of the                    that account balances do not exceed the
findings pertaining to the Councils. The                  FDIC insured limitation.
Councils should:
                                                      •   Consistently obtain audit reports from
•    Put procedures in place requiring the                subrecipients.
     development of a schedule of reporting
     due dates and adequate monitoring of
                                                      •   Review current policies and procedures
     compliance with the due dates in the
                                                          for monitoring subrecipients and
     schedule.
                                                          consider making any necessary
                                                          revisions to ensure compliance with
•    Create a complete set of fiscal policies             federal laws and regulations.
     which should include, but not be limited
     to, policies on fixed asset capitalization
     thresholds, travel advances, receipts



NEH OIG Semiannual Report                         8                                   September 2001
                                                          extent of documentation required for
•   Properly void unused checks and stop                  federal reporting.
    writing checks from the wrong account.
                                                      •   Develop and implement procedures to
•   Properly deface voided checks to                      inform subrecipients of Federal award
    prevent misuse and take necessary                     information and compliance
    steps to protect assets against potential             requirements, provide reasonable
    loss.                                                 assurance that the subrecipients obtain
                                                          required audits and take appropriate
•   Correctly record lobbying time as                     corrective action on audit findings, and
    administrative or joint expenses, which               evaluate the impact of any subrecipient
    is then potentially allocated to federal              noncompliance on the Council.
    award programs. Lobbying expenses in
    an account that is not allocated to               •   Review and update personnel files to
    federal grant programs are considered                 include all information regarding hiring,
    unallowable for federal grants.                       firing, pay rates, withholding and
                                                          evaluations.
•   Recognize the need for more frequent
    consultation with individuals having              •   Put control procedures in place to
    technical accounting expertise if it is not           ensure that all reports are reviewed by
    possible or cost effective to hire and                someone in management before
    retain an individual with the necessary               submission to the appropriate Federal
    accounting expertise.                                 agency.

•   Ensure timely submission of financial             •   Design a checklist and use it to account
    reports. In addition, if such reports are             for all documentation necessary to
    to be filed after the due date, ensure                support the approval and monitoring
    that management request the                           process of the regrants.
    appropriate extensions.
                                                      •   Complete the conversion of the
•   Put additional procedures in place since              accounting system and to make sure
    the only approval for disbursements was               internal controls are in place and
    the executive director's signature on                 enforced.
    each check. Invoices should be
    cancelled.                                        •   Implement procedures requiring staff to
                                                          deduct payroll taxes and report the
•   Take steps to ensure federal reports are              payroll taxes even if they are for short-
    supported by accounting records.                      term contract employees.

•   Implement reconciliation procedures               •   Establish travel policy and procedures
    between the primary accounting records                for staff to follow in filing an expense
    and supporting spreadsheets used by                   and trip report.
    Council personnel.
                                                      •   Establish procedures consistent with
•   Provide additional training for personnel             generally accepted accounting
    to understand the federal reporting                   principles.
    requirements, the relationships between
    Council records and systems and the




NEH OIG Semiannual Report                         9                                     September 2001
                            INVESTIGATION ACTIVITY

                                         BACKGROUND

The Inspector General Act provides the                  When the OIG receives a complaint or
authority for the Office of Inspector General to        allegation of a criminal or administrative
investigate possible violations of criminal or          violation, we make a determination of the
civil laws, administrative regulations, and             appropriate action to take. This can be an
agency policies, which relate to the programs           audit, an investigation, a referral to another
and operations of the NEH. The OIG Hotline,             NEH office or division, or a referral to another
e-mail address, and regular mail are efficient          federal agency.
and effective means of receiving allegations or
complaints from employees, grantees,                    As of April 1, 2001, two matters were open.
contractors, and the general public. The OIG            During the six months ending March 31, 2001,
has obtained assistance from other OIGs, the            we received 13 "Hotline" contacts. One case
Federal Bureau of Investigation, the Postal             was open at September 30, 2001.
Inspection Service, and other investigative
entities as necessary.

                                CASES OPEN AT APRIL 1, 2001

•   Allegation concerning the use of a                      •     Allegation than an applicant for an NEH
    vehicle by a board member of a grantee                        grant was being investigated by the OIG
    was closed. We found that the board                           of the Corporation for National Service
    member did use the vehicle for personal                       (CNS) was closed. CNS informed us
    use and had the grantee terminate the                         that an indictment was made against the
    person's membership on the board. In                          executive director for the applicant
    addition, the person was issued Internal                      organization. NEH decided not to make
    Review Form 1099 for the value of the                         the award to the applicant.
    use of the vehicle.

                               CONTACTS DURING THIS PERIOD

We received nine internal contacts during this                  investigation concluded that the employee
period.                                                         provided NEH with falsified letters. The
                                                                person voluntarily resigned from the
•   One anonymous e-mail complaint that a                       agency. In addition, we reported this
    SES staff member went on a conference                       matter to the supervisor of individual who
    with the main purpose of assisting the staff                assisted the NEH employee. The
    member's wife to do her research. In                        accomplice was not a federal employee.
    addition, several other matters regarding
    this SES staff member were included in              •       One allegation concerned a SES staff
    the anonymous e-mail. Our investigation                     member's travel. The allegation stated
    revealed that the allegations had no merit.                 that the SES staff person used
                                                                government funds to go on a job interview.
•   One allegation complaint that an NEH                        The allegation stated that the purpose of
    employee had forged several letters from                    the trip was fabricated. We were unable to
    doctors stating that the individual had                     look into this matter because of our
    cancer. The person asked NEH for                            workload. We expect to perform an
    advance sick leave for medical                              investigation in October 2001.
    appointments and treatment. Our



NEH OIG Semiannual Report                          10                                         September 2001
•   Six contacts concerned unwanted e-mail,                  •   One allegation from an NEH employee
    i.e., business opportunity scams, the                        stated that a grant applicant was going to
    Nigerian unclaimed money scam, etc. All                      use the grant for something other than the
    were forwarded to the Federal Trade                          stated objective in the application. Our
    Commission, and if applicable the Federal                    inquiry did not substantiate the allegation.
    Bureau of investigation.
                                                             Two other matters brought to our attention
We received two allegations concerning                       were forwarded to other federal agencies, as
grantees and applicants for NEH grants.                      they did not impact upon on NEH funds.

•   One allegation involved a bookkeeper
    stealing funds from a grantee. Our inquiry
    revealed that the bookkeeper stole some
    minor amount of funds from the
    organization. The grantee's attorney was
    handling the matter.


                     MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

                            No new cases were referred for criminal prosecution.

                                HOTLINE AND PREVENTION ACTIVITIES

We maintain a local Hotline phone number,                    We continue to issue agency-wide e-mail
agency e-mail address, and an Internet                       messages to NEH staff informing them of the
address. We maintain all three to provide                    violations that should be reported to the OIG.
additional confidentiality for those persons                 We use e-mail messages to inform NEH staff
bringing matters to the attention of the OIG.                about the OIG operations several times during
                                                             the year. Posters advising staff to contact the
                                                             OIG are posted throughout the agency
                                                             building.

                                          ANONYMOUS E-MAIL

We now have on the NEH Intranet and the                      and mismanagement in an anonymous
Internet a system for staff, grantees,                       manner. Two contacts were received this
contractors, etc., to report waste, fraud, abuse,            period via this system.


                                        INVESTIGATION ACTIVITY


                       Open at beginning of period                     2

                        Matters brought to the OIG                    13
                        during the reporting period

                        Total Investigative contacts                  15

                            Closed or referred during                 14
                                reporting period

                             Open at end of period                     1




NEH OIG Semiannual Report                               11                                       September 2001
                                   OTHER ACTIVITIES

                            INDIRECT COST RATE NEGOTIATIONS/REVIEWS

Grantees are entitled to recover total project             difficulties, however, preclude such an
costs, both direct and indirect. Indirect costs            approach. Therefore, they are usually grouped
are those costs of an organization or institution          into a common pool(s) and distributed to those
that are not readily identifiable with a particular        organizational or institutional activities that
project or activity but are nevertheless                   benefit from them through the expedient of an
necessary to the general operation of the                  indirect cost rate(s).
organization or institution and the conduct of
the activities it performs.                                Cognizant federal agencies approve the rates
                                                           after reviewing cost allocation plans submitted
The cost of office supplies, general telephone,            by grantees. The approved rate will generally
postage, accounting, and administrative                    be recognized by other federal agencies.
salaries are types of expenses usually
considered as indirect costs. In theory, all               During this period, we negotiated indirect cost
such costs might be charged directly; practical            rates with two grantees.


                    INDIRECT COST RATE DESK REVIEW REPORTS ISSUED


Grantee                                                      Report Number               Date Issued

Society for the Preservation of New                          OIG-01-06 (IDC)             04-12-2001
 England Antiquities

The History Institute for Education and Media                OIG-01-07 (IDC)             08-23-2001




                                  INTRA-AGENCY COOPERATION

In this period, OIG staff attended and engaged             meetings. An OIG staffperson attended
in various NEH meetings - panel meetings                   monthly NEH Employee Association Meetings.
(where grant applications are reviewed by                  The staff were also involved in the review of
outside consultants), pre-council meetings                 NEH administrative directives.
(where the program divisions discuss the panel
review results with the chairman and his                   The Office of Inspector General contributes to
immediate staff), and the National Council                 the discussions; however, the office does not
meeting. In addition, the IG and Deputy IG                 participate in policy making.
attended the chairman's monthly policy group




NEH OIG Semiannual Report                             12                                      September 2001
                                 CONGRESSIONAL REQUESTS

     We received and responded to several requests from both Senators and Congressmen.


                        PARTICIPATION ON THE EXECUTIVE COUNCIL ON
                                 INTEGRITY AND EFFICIENCY

                                                       government-wide activities to combat fraud
The Executive Council on Integrity and                 and waste in federal programs and operations.
Efficiency (ECIE) was established by the               OIG staff regularly attend ECIE meetings and
President in 1992 to coordinate and implement          provide information to the ECIE.


                            REGULATORY AND LEGISLATIVE REVIEWS

The Inspector General Act of 1978, as                  (1) impacts on the economy and efficiency of
amended, requires the Office of Inspector              agency programs and operations, and (2)
General to review proposed legislation and             contains adequate internal controls to prevent
regulations. The reviews are made to assess            and detect fraud and abuse. During this period
whether the proposed legislation or regulation         we provided the ECIE with comments on
                                                       various matters affecting the OIG community.



                                 OIG INTERNET AND INTRANET

The OIG has listed several semiannual reports          To enhance the NEH staff's recognition of the
on the Internet. The reports are accessible            OIG mission and responsibilities, we provide
through the Inspectors General homepage                links to several other federal agencies such as
(http://www.ignet.gov/ignet/internal/neh/html).        the Office of Management and Budget, the
The reports link to the NEH homepage                   General Accounting Office, the Office of
(http://www.neh.gov/html/oig/). To access the          Government Ethics, and the IGNET.
semiannual reports from outside the NEH,
enter the URL http://www.ignet.gov.




NEH OIG Semiannual Report                         13                                      September 2001
                                                TABLE I
                                   INSPECTOR GENERAL-ISSUED REPORTS
                                         WITH QUESTIONED COSTS

                                                                   Number      Questioned      Unsupported
                                                                  Of Reports     Cost             Cost
A. For which no management decision has been made by the             -0-         $ -0-           $ -0-
   commencement of the reporting period.

B. Which were issued during the reporting period.                     -0-          -0-                  - 0-

                            Subtotals (A+B)                           -0-        $ -0-              $ - 0-

C. For which a management decision was made during the
   reporting period.

         i.       Dollar value of disallowed costs.                   -0-       $ -0-           $ - 0-

         ii.      Dollar value of costs not disallowed (grantee       -0-       $ -0-           $ - 0-
                  subsequently supported all costs).


D. For which no management decision has been made by                  -0-       $ -0-           $ - 0-
   the end of the reporting period.
.

E. Reports for which no management decision was made                  -0-       $ -0 -              $   -0-
   within six months of issuance.



                                          TABLE II
                             INSPECTOR GENERAL-ISSUED REPORTS
                    WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                                      Number             Dollar
                                                                                     of Reports          Value

A. For which no management decision has been made by the commencement of                 -0-             $-0-
   the reporting period.

B. Which were issued during the reporting period.                                        -0-             $ -0 -

C. For which a management decision was made during the reporting period.                 -0-            $-0-

         i.       Dollar value of recommendations that were agreed to by                 -0-             $-0-
                  management.

         ii.      Dollar value of recommendations that were not agreed to by             -0-             $-0-
                  management.

D. For which no management decision was made by the end of the reporting period.         -0-             $-0




NEH OIG Semiannual Report                         14                               September 2001
                  GLOSSARY OF AUDIT TERMINOLOGY

Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a
provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or
document governing the expenditure of funds; because such cost is not supported by adequate
documentation; or because the expenditure of funds for the intended purpose is unnecessary or
unreasonable.

Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at
the time of the audit.

Disallowed Cost - A questioned cost that management, in a management decision, has
sustained or agreed should not be charged to the government.

Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could
be used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
unnecessary expenditures, or taking other efficiency measures.

Management Decision - The evaluation by management of the audit findings and
recommendations and the issuance of a final decision by management concerning its response to
such findings and recommendations.

Final Action - The completion of all management actions, as described in a management
decision, with respect to audit findings and recommendations. When management concludes no
action is necessary, final action occurs when a management decision is made.

Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L.
100-504).




NEH OIG Semiannual Report                       15                                   September 2001
                     THE OFFICE OF INSPECTOR GENERAL

                                serves American taxpayers
                          by investigating reports of waste, fraud,
                       mismanagement, abuse, integrity violations or
                        unethical conduct involving federal funds.


                             To report any suspected activity
                    involving NEH programs, operations, or employees


                                        Please Call

                                      (202) 606-8423

                                            or,

                                          Write


                       Office of Inspector General-Hotline
                     National Endowment for the Humanities
                          1100 Pennsylvania Ave. N.W., Room 419
                                 Washington, DC 20506

                                   FAX: (202) 606-8329


                                ELECTRONIC MAIL HOTLINE
                                     OIG@neh.gov




• Government employees are protected from reprisal

• Caller can remain anonymous

• Information is confidential
